David J. Weiner
+1 202.942.6702 Direct
David.Weiner@arnoldporter.com

January 21, 2021

Mr. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Cooper v. Tokyo Electric Power Co. Holdings, Inc., No. 20-730
Request for Extension of Time

Dear Mr. Harris:
I am counsel for Respondent General Electric Co. (“GE”) in the above-captioned
matter. The petition for a writ of certiorari in this case was docketed on November 25,
2020. The Court called for a response to the petition on December 30, 2020. The
response to the petition is currently due on January 29, 2021. Pursuant to Rule 30.4, GE
respectfully requests that the time for filing a response be extended by thirty days, up to
and including March 1, 2020 (because thirty days from January 29 is February 28, a
Sunday).
GE makes this request in light of counsel’s other pending professional
obligations, including responsive pleadings due in three cases on January 25, 2021
(Vuksanovich v. Airbus Group HQ, Inc., et al., No. 1:20-cv-11857 (D. Mass.); Salvatore
v. Airbus Group HQ, Inc., et al., No. 1:20-cv-11879 (D. Mass.); and Wong v. Carnival
Corporation & plc, No. 2:20-cv-04727 (C.D. Cal.)), and a fourth responsive pleading due
on January 27, 2021 (Esquivel v. Airbus Americas, Inc., No. 20-cv-07525 (N.D. Ill.)).
The requested extension would also permit GE to coordinate its submission with that of
Respondent Tokyo Electric Power Co. Holdings, Inc., which is likewise seeking a thirtyday extension of time to file its response to the petition.
Sincerely,
s/ David J. Weiner
David J. Weiner
cc:

All counsel of record

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

